Audit of USAID/Ghana’s Annual Reporting Process

7-641-04-006-P

July 22, 2004




                 Dakar, Senegal
July 22, 2004

MEMORANDUM

FOR:            USAID/Ghana Director, Sharon Cromer

FROM:           RIG/Dakar, Lee Jewell III /s/

SUBJECT:        Audit of USAID/Ghana’s Annual Reporting Process (Report
                No. 7-641-04-006-P)


This memorandum is our final report on the subject audit. In finalizing this
report, we considered management’s comments on our draft report and included
them in Appendix II.

This report contains three recommendations to which you concurred in your
response to the draft report. Based on your plans in response to the audit
findings, management decisions have been reached on all three
recommendations. However, the three recommendations will remain open until
the planned actions are completed by the Mission. Please coordinate final
actions on these three recommendations with USAID’s Office of Management
Planning and Innovation (M/MPI).

I appreciate the cooperation and courtesies extended to the members of our
audit team during this audit.




                                                                               1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                               5
Contents
           Background                                                       6

           Audit Objective                                                  7

           Audit Findings

                   Has USAID/Ghana complied with USAID guidelines
                   in meeting annual reporting requirements specified in
                   the Automated Directives System (ADS)?                   7

                         Data Assessment Procedures
                         Need To Be Enforced                                9

                         Documentation of Results Needs
                         To Be Strengthened                                11

                         Verifying and Cross-Checking
                         Data Would Improve Accuracy                       13

           Evaluation of Management Comments                               15

           Appendix I – Scope and Methodology                              17

           Appendix II – Management Comments                               19




                                                                                3
(This page intentionally left blank)




                                       4
Summary of   The objective of this audit was to determine if USAID/Ghana complied with
Results      USAID guidelines in meeting annual reporting requirements specified in the
             Automated Directives System (ADS). (See page 7.)

             USAID/Ghana followed some of the Automated Directives System (ADS) and
             Bureau for Policy and Program Coordination (PPC) guidance in preparing its
             fiscal year (FY) 2004 Annual Report. The narrative performance summaries
             for each of the strategic objectives were detailed and informative and included
             discussions on the extent to which targets were met and reasons for any
             shortcomings. Additionally, the report contained full discussions of problems
             encountered with some indicators and fully disclosed any limitations. (See
             pages 7 to 8). Furthermore, two of the four strategic objective teams (Health
             and Education) met the annual reporting requirements related to conducting
             data quality assessments (DQAs) for results reported to USAID/Washington.
             Both teams also maintained sufficient and accessible documentation to support
             the reported results as required. (See page 8).

             However, the remaining two strategic objective teams (Private Sector and
             Democracy and Governance) could not provide evidence that DQAs had been
             performed for the results reported in the Annual Report. This was due to a lack
             of appropriate attention to the requirements as well as confusion over the
             applicability of DQAs to some indicators.              Although USAID/Ghana
             established procedures related to conducting DQAs, these requirements had not
             been fully enforced or followed by these two teams. Thus, the Mission cannot
             assure the quality and validity of the data reported to USAID/Washington. We
             recommend that procedures be established and responsibility be assigned for
             verifying that DQAs are conducted or planned by each strategic objective team.
             (See pages 9 to 10).

             Additionally, although the Private Sector and Democracy and Governance
             teams provided partial documentation, that documentation was not sufficient
             to verify the results for 4 of 20 indicators reported in the indicator tables
             included in the FY2004 Annual Report. The two teams did not maintain
             documentation supporting the calculations and assumptions that were the
             basis for measuring program results. The staff was unaware of the extent to
             which detailed data should be included in the program files, even though the
             USAID/Ghana had issued a Mission Order incorporating USAID
             documentation requirements. By failing to formally document assumptions
             and calculations, USAID/Ghana increased its vulnerability to reporting
             inaccurate results and to ultimately losing important program information if
             team members leave USAID. We recommend that USAID/Ghana establish
             procedures and responsibility be assigned for verifying that each strategic
             objective team has established a system to maintain sufficient documentation
             to support program results. (See pages 11 to 13).


                                                                                          5
             Finally, we verified the accuracy of 28 results for which sufficient
             documentation was provided. These included 16 of the 20 indicators included
             in the strategic objective indicator tables in the Annual Report, as well as 12
             other results discussed in the narrative sections of the report. We found one
             material error and five other instances of immaterial mathematical errors or
             understatements of the data. The errors occurred because the data had not
             been reviewed or cross-checked to ensure accurate transcription from source
             documents or correct mathematical calculations—a simple practice that can
             help avoid such errors. As a result, USAID/Ghana cannot be fully assured
             that correct information has been reported to USAID/Washington. We
             recommend that USAID/Ghana develop procedures for cross-checking and
             verifying data and to document this activity in the program files. (See page
             13 to 15).

             USAID/Ghana concurred with the recommendations in the audit report and
             based on actions planned in response to the audit findings, management
             decisions have been reached on all three recommendations. The three
             recommendations will open until the final actions are taken by the Mission and
             coordinated with USAID’s Office of Management Planning and Innovation
             (M/MPI). (See page 16).




Background   Since 2001, each USAID Mission has been required to submit an Annual
             Report to the responsible bureau at USAID/Washington.1 This report is the
             Agency’s principal tool for assessing program performance on an annual basis
             and for communicating performance information to higher management levels
             and external audiences such as Congress and the Office of Management and
             Budget. To ensure consistency in reporting, each Mission prepares its report
             using a formatted template. Automated Directives System (ADS) 203.3.8
             contains policies related to preparing the Annual Report, and the Bureau for
             Policy and Program Coordination (PPC) provides additional guidance,
             including in-depth instructions for completing each section of the report and a
             mock Annual Report as an example.

             In December 2003, USAID/Ghana submitted its fiscal year (FY) 2004 Annual
             Report to the Africa Bureau as required. In the report, USAID/Ghana provided
             a narrative accounting of performance results for FY 2003 for four strategic
             objectives:2

                 •    Strategic Objective 1: Increased Private Sector Growth

             1
               Prior to 2001, Missions reported their results through the Results Review and Resources
             Request (R4).
             2
               In addition, the report included short discussion of four new strategic objectives in the new
             country strategy for fiscal years 2004 to 2010.

                                                                                                               6
                     •   Strategic Objective 2:       Increased Effectiveness of the Primary
                         Education System
                     •   Strategic Objective 3: Improved Family Health
                     •   Strategic Objective 4: Public Policy Decisions Better Reflect Civic
                         Input (also referred to as Democracy and Governance).

                  Each strategic objective section of the Annual Report also included the
                  mandatory strategic objective indicator table. The table included target and
                  actual results over the past several years as compared to the base year for
                  selected strategic objective level indicators. USAID/Ghana provided results
                  information in these tables for five Private Sector program indicators, seven
                  Education program indicators, four Health program indicators, and four
                  Democracy and Governance program indicators. Missions are also required to
                  indicate in the table the date of the last data quality assessment for each
                  included indicator; USAID/Ghana included this information in their tables.



Audit Objective   In accordance with its fiscal year 2004 audit plan, the Regional Inspector
                  General/Dakar performed this audit to answer the following audit objective:

                  Has USAID/Ghana complied with USAID guidelines in meeting annual
                  reporting requirements specified in the Automated Directives System
                  (ADS)?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.



Audit Findings    USAID/Ghana followed USAID guidance in preparing its Fiscal Year (FY)
                  2004 Annual Report as related to the formatting and required level of
                  discussions of the program results and challenges faced by the Mission during
                  the year.      However, the Mission’s compliance with annual reporting
                  requirements related to conducting data quality assessments (DQAs) and
                  maintaining documentation varied among the strategic objective teams: two of
                  the four strategic objective teams met the requirements, but two did not.

                  USAID/Ghana followed some of the Automated Directives System (ADS) and
                  Bureau for Policy and Program Coordination (PPC) guidance in preparing its
                  fiscal year (FY) 2004 Annual Report. As required, the narrative performance
                  summaries for each of the strategic objectives were detailed and informative.
                  Appropriate discussions were included on the extent to which targets were met,
                  and reasons were given for any shortcomings. For example, the report stated,
                  “the private sector economic growth program met two out of three of its key
                  performance indicators, specifically in non-traditional exports and tourism, but
                  not all the non-project assistance policy reforms.” The report discussed this
                                                                                                7
shortfall in meeting the reforms target, attributing it to difficulties in
determining whether certain policy reforms needed approval by the Ghanaian
government. Similarly, the report stated, “while the Democracy and
Governance program did not meet all of the established performance targets in
2003, the program made significant progress.” The report attributed the
shortfall in this program to indicators that did not accurately measure the
progress being achieved and reported that those indicators will be revised for
the new program covering fiscal years 2004 to 2010.

Data limitations encountered with some indicators were also fully discussed
and disclosed as required. For example, the report included a detailed
discussion of the reporting challenges faced by the Health team when the
Ghana Health Service revised the basis for calculating population-based
indicators. This change resulted in absurd rates for childhood immunizations,
one of the Health program’s key indicators. The report fully explained the
impact stating that the Health program could not report on achievements in
immunization coverage with any confidence. The report disclosed that the
reported results would be limited to actual numbers of children immunized,
rather than percentage of children immunized as in the past, thus limiting
comparisons of coverage rates to previous years.

Additionally, two of the four strategic objective teams (Health and Education)
met the annual reporting requirements related to conducting DQAs and
maintaining adequate documentation to support results reported to
USAID/Washington. Both teams conducted DQAs within the last three years
for the results reported in the strategic objective indicator tables. For instance,
in 2001 the Education team contracted with a private consultancy group to
assess all the indicators included in the team’s Performance Monitoring Plan.
For each indicator, the DQA documented critical factors such as how the
indicator was measured, the qualifications and training of the persons
collecting the data, the cost of data collection, and whether safeguards were in
place to ensure the integrity of the data.

The same two strategic objective teams also maintained sufficient and
adequate documentation of the results reported in the Mission’s FY2004
Annual Report. For example, the Health team maintained a separate filing
cabinet with a file established for each indicator contained in the Performance
Monitoring Plan. Each file contained (1) copies of reports from implementing
partners and government offices supporting the results reported by the Health
team, (2) initial DQAs performed for key indicators, and (3) memorandums
assessing whether any changes to data collection or analysis had occurred that
would affect the reporting of results. We found this system to be exemplary,
as the files were not only complete, but readily available—literally within
minutes we were able to review the supporting documentation for seven
indicators.



                                                                                 8
Nevertheless, as detailed below, USAID/Ghana did not fully comply with ADS
and PPC Annual Reporting guidance because two of the four strategic
objective teams had not conducted DQAs as required and had not maintained
sufficient, readily accessible supporting documentation as required.


Data Assessment Procedures
Need To Be Enforced

    Summary: Two strategic objective teams at USAID/Ghana could
    not provide evidence that DQAs had been performed in the three
    years preceding the submission of the data to USAID/Washington
    as required by the ADS. This was due in part to the lack of
    appropriate attention to the requirements and in part to confusion
    over the applicability of DQAs to some indicators. However,
    without a formal, periodic DQA that fully meets the ADS
    requirements, USAID/Ghana cannot assure the validity and
    accuracy of the data reported to USAID/Washington.

Neither the Private Sector nor Democracy and Governance teams provided
evidence of DQAs conducted for the indicators included in the indicator
tables in the FY2004 Annual Report. The indicator table for the Private
Sector program showed that such assessments were conducted in 2001 for
four of the five indicators but the team was unable to locate or provide copies
of these DQAs. Two team members stated they were not members of that
strategic objective team in 2001, and thus, were unaware of the existence of
the cited DQAs. Although the Private Sector team did provide a copy of a
DQA conducted in March 2004 for two of the indicators related to non-
traditional exports, this DQA did not cover the data reported in the FY2004
Annual Report.

Similarly the Democracy and Governance team could not provide copies of
DQAs for any of the indicators in the table, even though the Annual Report
showed that DQAs had been conducted in 2003 for four of five indicators.
The acting Democracy and Governance team leader provided copy of a site
visit report that documented her monitoring of the internet activities related to
one of the strategic objective indicators. While conducting site visits is part
of the overall monitoring process which could include determining the quality
of the data collected and reported by partners, there was no indication in the
report that the team member spent a portion of the visit ensuring the validity
of the data.

Team members from both the Private Sector and the Democracy and
Governance teams raised questions about the applicability of conducting
DQAs for certain indicators. For example, one of the Private Sector program
indicators reported on the number of milestones achieved as a measure of
                                                                                9
improvements in the private sector policy and regulatory framework.
According to the Private Sector team member, the team received evidence
from the Government that such milestones (e.g. the establishment of an
escrow account) had been reached. He questioned how to conduct a data
quality assessment of data for indicators that are essentially ‘yes’ or ‘no’
measures. The Democracy and Governance team raised similar questions.
For instance, the team questioned the extent to which one could conduct a
DQA for indicators such as those based on parliamentary actions that either
occur or do not occur.

It was difficult to determine whether the data quality assessments were
conducted as cited in the Annual Report without the evidence of such being
provided by the two teams. The lack of DQAs or of documentation that a
DQA had been conducted occurred, in part, because of the lack of appropriate
attention by the two strategic objective teams. The ADS requires that, at a
minimum, all performance data reported to Washington must have a DQA
sometime within the three years prior to submission.              Additionally,
USAID/Ghana issued a Mission Order in May 2001 related to performance
management systems that incorporated the ADS requirements related to
conducting periodic DQAs. According to that order, the strategic objective
teams are responsible for conducting DQAs and the Program office is charged
with general oversight of compliance with all aspects of the order.

DQAs were also not conducted for some indicators because the teams were
uncertain as to whether the indicators should be subjected to a DQA. We
agreed that conducting a data quality assessment on ‘yes’ or ‘no’-type
indicators might be difficult and contacted PPC for further clarification.
According to PPC, the purpose of a data quality assessment is to ensure that
the users know the quality of their data and its limitations. In the case of
indicators that are ‘yes’ or ‘no’ measures, the data can be considered high
quality as long as:

 1. the Mission clearly identified how achieving the milestone will be
    measured,

 2. this measurement of achievement was objectively verifiable, and

 3. the Mission collected the data directly.

This was not the case, however, with the Private Sector program indicator
related to achieving certain milestones. For this indicator, the Performance
Monitoring Plan defined the source and methodology of data collection as
being review of Ghanaian government reports and records by USAID staff
but did not describe the specific milestones considered or assessed in
determining whether results had been achieved.



                                                                             10
Without each strategic objective team conducting formal, periodic DQAs that
fully meet the ADS requirements, USAID/Ghana cannot ensure the validity
and accuracy of the data reported to USAID/Washington. Although
USAID/Ghana established procedures related to conducting DQAs, these
requirements have not been fully enforced or followed. Therefore we make
the following recommendation.

       Recommendation        No.     1:    We     recommend      that
       USAID/Ghana develop specific procedures that include
       assigning responsibility for verifying on an annual basis that
       each strategic objective team has conducted, or plans to
       conduct a DQA that meets ADS requirements, including
       maintaining such assessments in program files.


Documentation of Results Needs
To Be Strengthened

  Two strategic objective teams at USAID/Ghana did not maintain
  sufficient supporting documentation for indicators reported in the
  FY2004 Annual Report. Although partial documentation was
  maintained, key calculations and assumptions used in measuring the
  results were not documented in accordance with USAID guidance.
  This documentation was not included in the program files due to
  lack of understanding of the extent to which detailed data should be
  included in the program files. As a result, the Mission increased its
  vulnerability of reporting inaccurate data to Washington.

Neither the Private Sector nor Democracy and Governance teams maintained
supporting documentation sufficient to verify the results for the indicators
reported in their respective strategic objective indicator tables in the FY2004
Annual Report. For example, two of the five Private Sector program
indicators included in the indicator table were related to the value of selected
and total non-traditional exports. According to the Private Sector team, the
results reported in the Annual Report were derived by multiplying the actual
value of the exports as reported by the Ghana Export Promotion Council for a
6-month period by a historical factor based on previous years’ results. The
team provided a spreadsheet showing the Council’s data for the January
through June 2003 time period, which we traced back to source documents
with no exceptions. However, the Private Sector team had not documented
the historical factor that was used to extrapolate the values to a year-long
period. Team members told us that a factor of 2.48 had been developed for
the selected export measure for FY2003, but the factor later changed to 2.0
based on expected problems with the pineapple export market. However, no
documentation could be provided showing the derivation of the initial factor
or the rationale for adjusting the factor down. Similarly, no documentation

                                                                              11
existed in the files to support the 2.15 factor used in calculating the value of
all non-traditional exports.

Another indicator included in the Private Sector strategic objective indicator
table was the amount of revenue generated by visitors to USAID-assisted
national heritage sites. The files contained documentation of the total
revenues in the local currency, cedis, and we verified selected accounts back
to source documents and found no exceptions. However, the indicator was
defined and reported in U.S. dollars, not cedis, and the Private Sector team
maintained no documentation showing the exchange rate used to convert the
revenues from cedis to dollars. After several discussions, the team told us
that they had used the rate of 1,560 cedis per dollar. But they could not
provide documentation that would allow us to determine if this was a
reasonable exchange rate, especially given an exchange rate of over 8,000
cedis per dollar during fiscal year 2003. After the completion of our audit
work, we learned that 1,560 cedis per dollar was the exchange rate for the
base year of the program and would be used throughout the life of the
program to best capture the growth trends and eliminate variations due to
depreciating exchange rates. Yet this important decision was not documented
in the program files.

The Democracy and Governance strategic objective indicator table included
information on four indicators, one of which was the percentage of local
government decisions made through participatory mechanisms.               The
Democracy and Governance team provided a copy of an implementing
partner’s report to support the results included in the Annual Report.
However, the figures in the partner’s report differed from those in the table.
The Democracy and Governance team explained that they had used different
assumptions than those the partner had used to determine the results, such as
expanding the number of local governments to be included in the USAID
results. However, the team could not provide any written documentation to
support the reported result or the rationale for using different assumptions
than the partner’s.

The lack of sufficient documentation in these cases occurred because the team
members did not realize the extent to which key assumptions and calculations
should be documented. USAID guidance contained in TIPS Number 12
emphasizes the importance of documentation, stating that proper
documentation is a process that facilitates the maintenance of quality
performance indicators and data and should provide an opportunity for
independent checks concerning the quality of the performance measurement
system. According to TIPS Number 12, documentation includes recording
important considerations and assumptions related to performance indicators
as well as the detailed specifications for each indicator and its measurement,
and stresses the importance of proper documentation due to considerable staff
turnover within USAID. USAID/Ghana issued a Mission Order in May 2001
that fully incorporated these documentation requirements. Although specific

                                                                              12
responsibility for maintaining such documentation is not assigned within the
order, it is implied that each strategic objective team should determine and
maintain sufficient documentation to support their results.

Without maintaining supporting documentation for information included in
the Annual Report, USAID/Ghana increased its vulnerability to reporting
inaccurate or mis-attributed data to USAID/Washington. In this age of audit
readiness, it is prudent to maintain back-up documentation that can be easily
accessed. Furthermore, the effect of not maintaining adequate documentation
was demonstrated within the Democracy and Governance team, where two
members had left the team within the past year and the remaining members
could not provide the requested documentation.            Without formally
documenting key elements and factors used to develop reported results,
important program information may not be available to Mission management
and ultimately can be lost if team staff leave USAID. Therefore, to address
this weakness, we make the following recommendation.

       Recommendation No. 2: We recommend that USAID/Ghana
       develop specific procedures that include assigning
       responsibility for verifying on an annual basis that each
       strategic objective has established a system to maintain
       sufficient and adequate documentation supporting reported
       results.


Verifying and Cross-Checking
Data Would Improve Accuracy

 In testing the accuracy of 28 reported program results for which the
 teams provided sufficient support, we found one material error and
 five other instances of immaterial mathematical errors or
 understatements of the data. These errors occurred due to lack of
 review and cross-checking of mathematical calculations, a practice
 recommended in USAID guidance to easily avoid such errors.
 Without such procedures in place, USAID/Ghana cannot be fully
 assured that correct information has been reported to
 USAID/Washington.

The one material error was found in the seven Private Sector program results
verified. The Annual Report stated that sales from the Aid-To-Artisans
Ghana project were reported to be $3.2 million for January to September 2003
period, and the target of $4.4 million was expected to be achieved by end of
the calendar year. The Private Sector team provided a summary fact sheet of
the sales and targets for the last three years that showed sales for 2003 of $4.1
million, and a target of $3.8 million, with the error being material for both
figures. The Private Sector team could not provide an explanation for the

                                                                               13
differences between the figures included in the report and those shown in the
supporting documentation.

Another math error resulted in an understatement of a Private Sector program
result. The Private Sector program section of the Annual Report contained a
statement that the value of selected exports by USAID-assisted enterprises
represented an 18 percent increase over the previous period. However, we
found that the wrong denominator had been used to calculate the change from
the previous year, and that a 22 percent increase should have been reported.

One immaterial error was found in reviewing seven Health program
indicators. The Couple Years of Protection (CYP) indicator is a measure of
the number of years of protection against pregnancy calculated based on the
number of contraceptives distributed. We traced 35 entries for different types
of contraceptives distributed over the past year back to the four partners’
reports and found one discrepancy, due to not updating the summary
spreadsheet. However, when the CYP was recalculated, the difference was
only 2,300, which represented less than one percent of the total CYP.

Another understatement was found in verifying nine Education program
indicators and results. The Annual Report included a statement that “over 10
percent of all public primary schools have benefited directly from support
provided by USAID.” However, when recalculating the figure using the
support documentation, we found the percentage to be 17 percent. Thus the
impact of USAID’s program was understated by 7 percent.

Within the same section related to the Education program, the Annual Report
reported that 93 percent of communities continued to be involved in
supporting school improvements after “graduation” from the USAID/Ghana
program. However, when tracing the various figures used to calculate the
percentage, we found several errors that changed the figure from 93 percent to
92 percent. Again, this difference was not material.

When verifying the five Democracy and Governance results, we found a
discrepancy in the information reported on the number of internet sessions at
USAID-assisted Community Learning Centers.              The Democracy and
Governance team member compiled monthly internet usage data from various
partners and we found non-material mathematical errors in one partner’s
report that were carried forward into the Democracy and Governance
spreadsheet. We also noted that the partners’ reports included data on other
types of computer sessions, such as offline training, which were also included
in the Democracy and Governance spreadsheet, even though offline sessions
were not intended to be included in measuring the indicator results.

These errors occurred because USAID/Ghana had not developed procedures
to ensure that data is reviewed or cross-checked as part of the reporting
process. While the teams could not always explain the reason for

                                                                            14
                discrepancies, it appears that the errors occurred either in transcription from
                source documents or from simple mathematical miscalculations (made either
                manually or from errors embedded in spreadsheet formulas). USAID
                guidance contained in TIPS Number 12 indicates that while some errors in
                collecting data that focuses on social and economic change are to be expected,
                transcription errors and other discrepancies can be easily avoided by careful
                cross-checking of the data to the source document. To further ensure
                accuracy of data, it would be prudent to recalculate mathematical calculations
                used in reporting program results.

                Without procedures in place to ensure such cross-checking and recalculation
                of transcribed data and key mathematical calculations, USAID/Ghana cannot
                fully ensure that the data reported to USAID/Washington is accurate and
                error-free.    To address this weakness, we make the following
                recommendation.

                       Recommendation No. 3: We recommend that
                       USAID/Ghana develop specific procedures for each
                       strategic objective team to cross-check and verify reported
                       data with source documents and document this verification
                       in the activity files.


Evaluation of   USAID/Ghana concurred with all of the findings and recommendations in the
                draft audit report, and indicated that appropriate actions would be taken to
Management      address the three recommendations. Therefore, a management decision has
Comments        been reached for all three recommendations. However, because the planned
                actions have not been completed by the issuance date of this report, the three
                recommendations remain open until final action is taken by USAID/Ghana and
                coordinated with USAID’s Office of Management Planning and Innovation
                (M/MPI). The Mission anticipates final actions to be completed by the first
                quarter of FY2005.

                Recommendation No. 1 recommends that USAID/Ghana develop specific
                procedures that include assigning responsibility for verifying on an annual
                basis that each strategic objective team has conducted, or plans to conduct a
                DQA that meets ADS requirements, including maintaining such assessments in
                program files. The Mission concurred with this recommendation and is
                revising its Mission order to ensure that DQAs are conducted as required.
                Additionally, in May 2004, USAID/Ghana hired a Monitoring and Evaluation
                Specialist who has been assigned responsibility for verifying the validity and
                accuracy of data reported to USAID/Washington.

                Recommendation No. 2 recommends that USAID/Ghana develop specific
                procedures that include assigning responsibility for verifying on an annual
                basis that each strategic objective has established a system to maintain
                sufficient and adequate documentation supporting reported results. The

                                                                                             15
Mission concurred with this recommendation and is revising a Mission order
to ensure that each strategic objective team has established and maintained
sufficient documentation. The recently hired Monitoring and Evaluation
Specialist has been assigned responsibility for evaluating each team’s current
system and establishing a uniform system that meets ADS requirements.

Recommendation No. 3 recommends that USAID/Ghana develop specific
procedures for each strategic objective team to cross-check and verify reported
data with source documents and document this verification in the activity files.
The Mission concurred with this recommendation and is revising a Mission
order to ensure that such procedures are fully implemented. The recently hired
Monitoring and Evaluation Specialist has been assigned responsibility to
ensure that reported data is cross-checked and verified, and the verification is
documented.




                                                                             16
                                                                                    Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/Dakar conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine if USAID/Ghana complied with Automated Directives System
              (ADS) requirements and other guidelines in preparing its Annual Report. The
              audit was conducted at USAID/Ghana in Accra from April 19 to May 6, 2004.

              We assessed the internal controls of the Mission’s annual reporting process.
              These included USAID guidance contained in the Automated Directives System,
              memorandums from the Bureau for Policy and Program Coordination (PPC),
              and other internal policies and procedures at both the USAID and Mission level.
              The audit scope focused on examining the procedures used by the Mission to
              prepare its fiscal year (FY) 2004 Annual Report (which reported FY2003 results)
              as well as verifying the accuracy of the reported data. This included reviewing
              reports prepared by the Mission and partners, and reviewing and tracing selected
              results back to a variety of source documents.

              Methodology

              To determine the extent to which the Mission complied with ADS and PPC
              guidance, we selected 32 program results reported in the four strategic
              objective sections of the FY 2004 Annual Report FY 2004. These included 20
              indicators included in the strategic objective indicator tables (representing the
              key measures for each program) and 12 other results reported in the narrative
              sections of the Annual Report. We performed substantive testing to ensure that
              the Mission complied with specific reporting requirements and that the
              underlying data included in the Annual Report is obtained and reported in
              accordance with Agency requirements. For the 32 selected indicators and
              results, we determined if the teams had maintained sufficient supporting
              documentation. For the 28 indicators and results for which sufficient
              documentation was maintained, we traced and verified the reported results
              back to source documents. Finally, for the 20 indicators included in the
              strategic objective tables, we reviewed evidence that data quality assessments
              had been conducted as cited in the strategic objective indicator table. Our
              verifications included examining source documents and electronic and manual
              records.

              We also interviewed responsible personnel on each strategic objective team at
              the USAID Mission in Ghana, as well as in the Program Office, regarding the
              process for preparing the Annual Report and the data sources for the various
              reported indicators.


                                                                                            17
In assessing the accuracy of the data, we used a threshold of 1 percent for
transcription accuracy and 5 percent for computation accuracy.




                                                                         18
                                                                                Appendix II

Management
Comments




             July 19, 2004

             MEMORANDUM

             TO:             Lee Jewell III, RIG/Dakar

             FROM:           Alex Newton, A/Director, USAID/Ghana /s/

             SUBJECT:        Audit of USAID/Ghana’s Annual Reporting Process (Report
                             No. 7-641-04-00X-P)

             The purpose of this memo is to provide Mission’s comments regarding subject
             audit recommendations of I.G. draft audit report. No. 7-641-04-00X-P.

             Recommendation No. 1: We recommend that USAID/Ghana develop
             specific procedures that include assigning responsibility for verifying on
             an annual basis that each strategic objective team has conducted, or plans
             to conduct a DQA that meets ADS requirements, including maintaining
             such assessments in program files.

             Mission Comments: Mission concurs with this audit recommendation.

             Action to Be Taken: USAID/Ghana is currently reviewing and revising its
             Mission Order, "Establishment of Mission Performance Management Plan,”
             dated May 30, 2001. The revised Mission Order will contain procedures to
             ensure that each SO Team conducts or plans to conduct DQAs that meet ADS
             requirements and maintains those assessments in program files. On May 3,
             2004, USAID/Ghana hired a Monitoring and Evaluation (M&E) Specialist
             who is currently undergoing USAID training. The M & E Specialist has been
             assigned the responsibility for verifying the validity and accuracy of the data
             reported to USAID/Washington.

             Recommendation No. 2: We recommend that USAID/Ghana develop
             specific procedures that include assigning responsibility for verifying on

                                                                                         19
an annual basis that each strategic objective has established a system to
maintain sufficient and adequate documentation supporting reported
results.

Mission Comments: Mission concurs with this audit recommendation.

Action to Be Taken: USAID/Ghana is currently reviewing and revising its
Mission Order, "Establishment and Maintenance of Mission Program and Data
Management Systems,” dated March 23, 2002. The revised Mission Order will
contain procedures to ensure that each SO Team verifies annually that each SO
has established a system to maintain sufficient and adequate documentation
supporting reported results. The M & E Specialist has been assigned the
responsibility for evaluating each SO Team’s current system and establishing a
uniform system that fully meets ADS requirements.

Recommendation No. 3: We recommend that USAID/Ghana develop
specific procedures for each strategic objective team to cross-check and
verify reported data with source documents and document this
verification in the activity files.

Mission Comments: Mission concurs with this audit recommendation.

Action to Be Taken: USAID/Ghana is currently reviewing and revising its
Mission Order, "Establishment of Mission Performance Management Plan,”
dated May 30, 2001. The revised Mission Order will contain procedures to
ensure that those procedures are fully implemented. The M & E Specialist has
been assigned the responsibility for ensuring that each SO Team’s reported
data is cross-checked and verified with source documents and this verification
is properly documented in the activity files.


SUMMARY: The mission is anticipating that all three recommendations will
be fully complied with by the first quarter of FY 2005.




                                                                           20
